CERTIFICATE OF COMPLIANCE
CASE NO.

TOD KEVIN HOUTHOOFD, in pro se,
Petitioner,
vs.
LES PARISH, Warden,
Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ
of Certiorari contains 3902 words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on IXaa/.

o^cL,

2021

^TocL J\ovtfkxxskL
Tod Houthoofd #596112
Oaks Correctional Facility
1500 Caberfae Hwy.
Manistee, MI 49660

